         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Special Report


       Response to Congressional
       Request on Signage
       Requirements for Projects
       Funded by the Recovery Act
       Report No. 10-X-0175

       August 2, 2010
Report Contributors:                            Andrés Calderón
                                                Denise Darasaw
                                                Heriberto Ibarra
                                                Doug LaTessa




Abbreviations

ARRA           American Recovery and Reinvestment Act of 2009
DERA           Diesel Emissions Reduction Act
EPA            U.S. Environmental Protection Agency
LUST           Leaking Underground Storage Tank
OIG            Office of Inspector General
RAT Board      Recovery Accountability and Transparency Board
SRF            State Revolving Fund


Cover photo:      Sign identifying water projects in New Hampshire funded by the
                  American Recovery and Reinvestment Act of 2009. (EPA OIG photo)
                     UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                  WASHINGTON, D.C. 20460



                                                                          THE INSPECTOR GENERAL



                                        August 2, 2010

The Honorable Darrell E. Issa
Ranking Member
Committee on Oversight and Government Reform
U.S. House of Representatives
Washington, DC 20515

Dear Congressman Issa:

       Enclosed is our response to your request dated June 24, 2010, to the Honorable Earl
Devaney, Chairman of the Recovery Accountability and Transparency (RAT) Board, asking for
information on signage requirements for recipients of American Recovery and Reinvestment Act
of 2009 funds. The RAT Board requested we respond directly to you concerning Recovery Act
funds awarded by the U.S. Environmental Protection Agency (EPA).

       We will continue to monitor EPA’s activities to ensure that Recovery Act funds are
properly spent. If you should have any questions about our work, please contact
Eileen McMahon, Assistant Inspector General for Congressional, Public Affairs and
Management, at (202) 566-2391.


                                           Sincerely,



                                           Arthur A. Elkins, Jr.



Enclosure
                                                                                           10-X-0175


Purpose
On June 24, 2010, Congressman Darrell Issa, Ranking Member of the House Oversight and
Government Reform Committee, sent a request to the Recovery Accountability and
Transparency (RAT) Board requesting an investigation regarding signage requirements for
recipients of American Recovery and Reinvestment Act of 2009 funds. The RAT Board
requested that the U.S. Environmental Protection Agency (EPA) Office of Inspector General
(OIG) respond directly concerning Recovery Act funds awarded by EPA. The Congressman
requested the following information:

   •   A complete accounting of all guidance issued by any federal agency to recipients of
       stimulus funds, including federal, State, and local agencies, on the posting of signs, logos,
       or emblems intended to publicly identify the source or expenditure of stimulus funds.

   •   Whether any federal agency requires, or has required, stimulus recipients to post signs,
       logos, or emblems identifying the source or expenditure of stimulus funds and whether
       such agency had statutory authority to do so.

   •   If any federal agency has relaxed a requirement that recipients post signs, logos, or
       emblems identifying the source or expenditure of stimulus funds, and an explanation of
       the decision to do so.

   •   An assessment of the total cost to the taxpayers from the posting of signs, logos, or
       emblems identifying the source or expenditure of stimulus funds.

Background
EPA received $7.2 billion from the Recovery Act. The Recovery Act awarded funds for the
Clean Water State Revolving Fund (SRF), Drinking Water SRF, Brownfields, Leaking
Underground Storage Tanks, Diesel Emission Reductions, and Superfund Remedial programs.
The RAT Board was established under Section 1521 of the Recovery Act to coordinate and
conduct oversight of covered funds to prevent fraud, waste, and abuse.

Scope and Methodology
To answer the questions posed, we interviewed EPA staff from five program offices, reviewed
guidance EPA prepared for Recovery Act recipients, and obtained a limited number of invoices
for the cost of signs posted at EPA-funded projects paid for by the Recovery Act as well as
information on the number of Recovery Act projects for certain EPA programs. We also
interviewed staff at EPA policy offices, including the Office of Grants and Debarment and the
Office of Acquisition Management. The OIG’s Office of Counsel also conducted a legislative
search to identify any authority allowing, or restricting, the posting of signs indicating the source
of federal funds.




                                                  1
                                                                                           10-X-0175


Results

 Request Item 1: A complete accounting of all guidance issued by any federal agency to
 recipients of stimulus funds, including federal, State, and local agencies, on the posting
 of signs, logos, or emblems intended to publicly identify the source or expenditure of
 stimulus funds.

EPA developed two forms of guidance that discuss the need for recipients to display a Recovery
Act logo to communicate to the public that the project is a Recovery Act investment. First, EPA
included a standard term and condition in all grant agreements that stated that a sign must be
displayed. The term and condition read as follows:

       This project receives funding under the American Recovery and Reinvestment
       Act of 2009 (ARRA) and the grantee, subgrantee or loan recipient must display
       the ARRA Logo in a manner that informs the public that the project is an ARRA
       investment. The ARRA logo may be obtained from the EPA grants office listed
       in this award document. If the EPA logo is displayed along with the ARRA logo
       and logos of other participating entities, the EPA logo must not be displayed in a
       manner that implies that EPA itself is conducting the project. Instead, the EPA
       logo must be accompanied with a statement indicating that the grantee, subgrantee
       or loan recipient received financial assistance from EPA for the project.

The specific directions with respect to the logo that are referenced in the term and condition are
contained in General Guidelines for Emblem and Logo Applications. A copy of these guidelines
can be found at http://www.epa.gov/ogd/forms/Recovery_emblem_guide_v1[1].pdf. The
guidelines do not indicate which federal agency developed them, but questions about the
guidelines are to be directed to the General Services Administration.

The other guidance EPA developed is a four-page question-and-answer document for Leaking
Underground Storage Tank (LUST) program grant recipients. The guidance is titled LUST
Program FAQs – Recovery Act Logo, dated December 29, 2009. The guidance was prepared in
response to inquiries from recipients asking questions about signage requirements. The LUST
program did not post this guidance on the EPA public Website, but it was provided to EPA’s
regional Underground Storage Tank program managers, who in turn shared the guidance with
recipients.

 Request Item 2: Whether any federal agency requires, or has required, stimulus
 recipients to post signs, logos, or emblems identifying the source or expenditure of
 stimulus funds and whether such agency had statutory authority to do so.

Generally speaking, the terms and conditions sections of EPA’s assistance agreements require
recipients of Recovery Act funds to post identifying signs, logos, or emblems. We were not able
to identify statutory authority that explicitly allowed or disallowed the posting of signs, logos, or
emblems intended to publicly identify the source or expenditure of Recovery Act funds.




                                                  2
                                                                                          10-X-0175



 Request Item 3: If any federal agency has relaxed a requirement that recipients post
 signs, logos, or emblems identifying the source or expenditure of stimulus funds, an
 explanation of the decision to do so.

The Diesel Emissions Reduction Act (DERA) and LUST program offices relaxed the
requirement that recipients post signs, logos, or emblems identifying the expenditure of
Recovery Act funds. Specifically, the DERA program does not require recipients to post signs
on “rolling” projects, such as school buses; the LUST program does not require recipients to post
signs on short-term projects, such as projects that last 1 day.

 Request Item 4: An assessment of the total cost to the taxpayers from the posting of
 signs, logos, or emblems identifying the source or expenditure of stimulus funds.

As of July 2010, EPA did not have information on the total cost of posting signs, logos, or
emblems related to the Recovery Act. Recipients are not required to report this information.
Therefore, we cannot provide an assessment of the total cost of posting signs, logos, or emblems.
On July 15, 2010, the RAT Board sent a request to EPA’s Senior Accountable Official for
Recovery to provide the assessment of total cost to the RAT Board by September 3, 2010.

In response to the request, the OIG contacted a limited number of recipients and asked them
about the signs that they purchased. The cost and type of signs varied greatly (Table 1). We did
not verify the cost information provided to us.

Table 1: Signage data for selected EPA programs – OIG limited sample
                                        Number            Cost
            Program                     of signs         per sign          Total cost
 Clean Water SRF project                     1           $331.12             $331.12
 Clean Water SRF project                     4            500.00            2,000.00
 Clean Water SRF project                     1            519.73              519.73
 Clean Water SRF project                     1            945.00              945.00
 Drinking Water SRF project                  1            275.00              275.00
 State LUST program                        25              40.00            1,000.00
 State LUST program                       250                3.20             800.00
 Superfund project                           1             82.15               82.15
 Brownfields project                         1            290.00              290.00
Source: Interviews with EPA staff and grant recipients. Cost data provided was based on
best available information or readily available invoices.

Further, determining the number of signs that were purchased was difficult for a number of
reasons. First, many of the grants funded multiple projects. Second, as was the case with the
LUST program, one sign was used for multiple projects. Finally, not all projects were required
to have signs. We obtained information on the number of projects funded by some of EPA
programs as of July 2010 (Table 2), but the number of projects does not correlate to the actual
number of signs that were purchased.




                                                        3
                                                                 10-X-0175


Table 2: Recovery Act projects for selected EPA programs
                                            Number of
   Program or funding vehicle          Recovery Act projects
 Clean Water SRF                             1,871
 Drinking Water SRF                          1,347
 LUST                                        1,275
 Contracts                                     194
Source: SRF information obtained from EPA information systems;
LUST and Contracts information obtained from EPA staff.




                                                      4
                                                                               10-X-0175


                                                                             Appendix A

                                   Distribution

Office of the Administrator
Assistant Administrator, Office of Administration and Resources Management
Assistant Administrator, Office of Air and Radiation
Assistant Administrator, Office of Water
Assistant Administrator, Office of Solid Waste and Emergency Response
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Office of Acquisition Management
Director, Office of Grants and Debarment
Chairman, Recovery Accountability and Transparency Board
Inspector General




                                             5
